<html>
<title> - [H.A.S.C. No. 114-33]DEPARTMENT OF DEFENSE FISCAL YEAR 2016 SCIENCE AND TECHNOLOGY PROGRAMS: LAYING THE GROUNDWORK TO MAINTAIN TECHNOLOGICAL SUPERIORITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                                    

                         [H.A.S.C. No. 114-33]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                   DEPARTMENT OF DEFENSE FISCAL YEAR

                    2016 SCIENCE AND TECHNOLOGY PRO-

   GRAMS: LAYING THE GROUNDWORK TO MAINTAIN TECHNOLOGICAL SUPERIORITY

                               __________

                              HEARING HELD
                             MARCH 26, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-235                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
     
     
     
     
     
     
     
     
     
     
     
     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Julie Herbert, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................    13
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Miller, Mary J., Deputy Assistant Secretary of the Army for 
  Research and Technology........................................     4
Prabhakar, Dr. Arati, Director, Defense Advanced Research 
  Projects Agency................................................    11
Shaffer, Alan R., Principal Deputy, Assistant Secretary of 
  Defense for Research and Engineering...........................     2
Walker, Dr. David E., Deputy Assistant Secretary of the Air Force 
  for Science, Technology, and Engineering.......................     9
Winter, RADM Mathias W., USN, Chief of Naval Research............     6

                                APPENDIX

Prepared Statements:

    Miller, Mary J...............................................    52
    Prabhakar, Dr. Arati.........................................   103
    Shaffer, Alan R..............................................    29
    Walker, Dr. David E..........................................    97
    Winter, RADM Mathias W.......................................    70

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Franks...................................................   120
    Mr. Langevin.................................................   119
    Mr. Nugent...................................................   120
    Ms. Stefanik.................................................   121

Questions Submitted by Members Post Hearing:

    Mr. Nugent...................................................   130
    Mr. Wilson...................................................   125
 
[H.A.S.C. No. 114-33]

DEPARTMENT OF DEFENSE FISCAL YEAR 2016 SCIENCE AND TECHNOLOGY PROGRAMS: 
      LAYING THE GROUNDWORK TO MAINTAIN TECHNOLOGICAL SUPERIORITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                          Washington, DC, Thursday, March 26, 2015.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. I am pleased to welcome everyone here today for 
this hearing on the fiscal year 2016 budget request for science 
and technology [S&T] programs within the Department of Defense 
[DOD].
    We are all aware of the intense downward budget pressure 
the Department is under these days in the ever-growing universe 
of threats that we are forced to deal with. Science and 
technology programs are part of the modernization investments 
that keep the Department prepared and ready to deal with those 
threats and ensure that when we send our soldiers, sailors, 
airmen, and marines into harm's way, we make sure they are 
never in a fair fight because technology is on their side.
    But defense sequestration jeopardizes that technological 
superiority and our ability to outmatch and outclass potential 
adversaries. I agree, we cannot ignore today's concerns, 
including readiness, equipment recapitalization, and the health 
and welfare of our service members.
    Nor can we expect to raid our modernization accounts to pay 
those bills. That is like taking money from the retirement 
accounts to pay the mortgage today. There are short-term 
rewards, but you create an even bigger problem down the line.
    I say that to make the point we understand why science and 
technology is important, should be protected, but also 
recognize that in this budget environment we will continue to 
be under pressure. The fiscal year 2016 budget request for 
science and technology is seeing a modest increase, but that 
request was also well above the budget caps set by defense 
sequestration.
    If we have to remain at sequestration levels, I fear the 
adverse impact it will have on our science and technology 
programs. Not only will we have to defer sought-after and 
important programs, but we will continue to defer the hiring of 
needed scientists and engineers, defer investments in necessary 
equipment, and defer building or upgrading facilities that 
support world-class research and world-class researchers.
    I know that I have painted a bleak picture, but it is only 
to punctuate how important we think science and technology is 
to our national security and the defense of our great Nation. 
Every time we push off research one year--one more year, we 
give our adversaries another year to catch up with us.
    With that, I would like to welcome our distinguished panel 
of witnesses for their thoughts on this topic.
    Mr. Alan Shaffer, Principal Deputy to the Assistant 
Secretary of Defense for Research and Engineering; Ms. Mary 
Miller, Deputy Assistant Secretary of the Army for Research and 
Technology; Rear Admiral Mat Winter, United States Navy, Chief 
of Naval Research; Dr. David Walker, Deputy Assistant Secretary 
of the Air Force for Science, Technology and Engineering; Dr. 
Arati Prabhakar, the Director of the Defense Advanced Research 
Projects Agency, DARPA.
    I would like to turn now to our ranking member, who will be 
here any moment, and he is on the way. And his staff is very 
trustworthy, and they promised me he is on the way.
    But Mr. Langevin should be here any time. But he has 
indicated to proceed, and we shall because of the voting 
schedule that we may be facing today.
    I would like to remind our witnesses that your written 
statements will be submitted for the record, so we ask that 
each of you summarize your comments to 5 minutes or less.
    Mr. Shaffer, we will begin with you, and we look forward to 
your opening statement. Before we do, though, I understand that 
you will be retiring from government service at the end of May 
to take a position as the chief science--chief scientist of the 
NATO [North Atlantic Treaty Organization] Science and 
Technology Organization. What a great honor.
    You have been a good friend of this committee, and so I 
would like to thank you for your many years of service in the 
Air Force, your public service within the Department, and we 
wish you and your family best wishes in the future. Godspeed.
    [Applause.]

   STATEMENT OF ALAN R. SHAFFER, PRINCIPAL DEPUTY, ASSISTANT 
       SECRETARY OF DEFENSE FOR RESEARCH AND ENGINEERING

    Mr. Shaffer. Thank you very much, sir. It has been a 
pleasure to serve and I will continue to serve in the NATO 
capacity.
    Chairman Wilson and committee members, I am proud to be 
here once again to represent the 100,000-plus scientists and 
engineers in the Department of Defense. Although this is a 
community that has been challenged in many ways over the last 
several years, they continue to perform remarkably well.
    I want to start with a somewhat unusual story and share 
with you the value of long-term science and technology. I was 
recently briefed about the progress made in combat casualty 
care. In Iraq and Afghanistan from 2005 to 2013 the average 
severity of injuries to our young forces increased by 25 
percent, but the fatality rate was cut in half.
    We contend the decline in fatality rate is due, in part, to 
the long-term advances and delivery from the medical science 
and technology community, which includes contributions from 
everyone at this table.
    While our S&T community has performed very well in the 
recent past, the national security environment is changing in 
fundamental ways. For the first time in several decades, we are 
seeing an erosion of our technologically based military 
advantage.
    Secretary Ash Carter addressed this during his fiscal year 
2016 budget posture, when he said:
    ``For decades, U.S. global power projection has relied on 
the ships, planes, submarines, bases, aircraft carriers, 
satellites, networks, and other advanced capabilities that 
comprise our military's unrivaled technological edge. But 
[today] that superiority is being challenged in unprecedented 
ways.
    ``Advanced military technologies, from rockets and drones 
to chemical and biological capabilities, have found their way 
into the arsenals of both non-state actors as well as 
previously less-capable militaries. And other nations--among 
them Russia, China, Iran, and North Korea--have been pursuing 
long-term, comprehensive military modernization programs to 
close the technology gap that has long existed between them and 
the United States.''
    Dr. Carter also addressed the impact of the sequester, 
stating, ``A return to sequestration in fiscal year 2016 would 
affect all aspects of the Department, but not all 
equally. . . .
    ``Approximately half of the cuts would have to come from 
the Department's modernization accounts, undermining our 
efforts to secure technological superiority for U.S. forces in 
future conflicts. . . . Sequestration would put on a hold on 
critical programs, like our Aerospace Innovation Initiative, 
the Next-Generation Adaptive Engine, the Ground-Based 
Interceptor missile defense kill vehicle redesign, and several 
space control efforts.''
    As you noted, the 2016 budget request for science and 
technology increases to $12.3 billion. We have focused on S&T 
investments in advanced technology development to provide more 
prototypes and demonstrations.
    Our recent emphasis in demonstrations is now producing 
results across the DOD. I will highlight just a few of our 
noteworthy demonstration programs.
    My Emerging Capabilities and Prototype Office has started 
several joint capability technology demonstrations for 
communications and imagery from small, tactically relevant 
satellites. The Space and Missile Defense Command Nanosatellite 
Program, known as SNaP, is a low Earth orbit nanosatellite that 
will provide assured, beyond-line-of-sight communication, 
enabling mission command on the move.
    Three SNaP satellites were delivered this March with a 
launch date scheduled for August 2015. The Kestral Eye is a 25-
kilogram satellite that provides good-enough 1.5-meter visible 
imagery for less than $1.5 million.
    Both imagery tasking and delivery is controlled directly by 
battlefield commanders, and this provides a real augmentation 
to our tactical ISR [intelligence, surveillance, and 
reconnaissance] capability. Kestral Eye will launch this 
December.
    The Army is developing a high-energy laser mobile 
demonstrator to demonstrate low-cost capability for counter 
rockets, artillery, and mortar. In 2014, the Army tested this 
system twice and successfully engaged roughly 90 percent of the 
targets. We are now on a path for protective lasers to be 
fielded in the Army's Indirect Fire Protection Capabilities 
Increment II.
    The Navy's Innovative Naval Prototype Laser Weapons System 
is another solid state laser under development. The Navy 
demonstration uses a fiber laser, as compared to the Army's 
heat capacity laser. The system was demonstrated aboard the USS 
Ponce in 2014 and is moving forward to its next set of field 
demonstrations.
    Finally, the Air Force's Adaptive Engine program is a new 
architecture, offering roughly 25 percent reduction in specific 
fuel consumption. Since 2007, we have moved from the Adaptive 
Versatile Engine Technology, ADVENT, program to the Adaptive 
Engine Technology Demonstration, and in 2016 we will commence 
with the Adaptive Engine Transition Program [AETP], which is 
out of S&T, but a 6.4 program moving towards engineering, 
manufacturing, and development program of record early next 
decade.
    A frequent criticism of the S&T program is that there is 
duplication among the services. I don't believe that this is a 
pervasive problem, but in 2013 we reinstated Reliance 21, a 
process to allow the services and defense agencies looking 
across all projects to optimize their output.
    Under Reliance 21, we have divided the overall S&T program 
into 17 communities of interest [COI], and they have--they are 
developing integrated science and technology roadmaps or plans. 
These COIs are adjusting programs at the execution level.
    This is, indeed, an interesting time for DOD science and 
technology, with operational challenges increasing at a time 
when budgets are flat or declining. Meeting the national 
security needs requires we develop and adopt a multifaceted 
strategy.
    This strategy is in place. I am proud of the professionals 
and the entire R&E [research and engineering] enterprise, and 
look forward to continued achievements from our dedicated 
workforce.
    I also very much value working together with each of these 
science and technology executives to deliver the most that we 
can from the overall Department of Defense.
    Thank you, sir.
    [The prepared statement of Mr. Shaffer can be found in the 
Appendix on page 29.]
    Mr. Wilson. Thank you very much, Mr. Shaffer.
    Ms. Miller.

STATEMENT OF MARY J. MILLER, DEPUTY ASSISTANT SECRETARY OF THE 
                ARMY FOR RESEARCH AND TECHNOLOGY

    Ms. Miller. Chairman Wilson, Ranking Member Langevin, and 
distinguished members of the subcommittee, thank you for this 
opportunity to discuss the Army's science and technology 
program for fiscal year 2016.
    I came before this committee last year and spoke to the 
difficult choices that the Army faced balancing force 
structure, operational readiness, and modernization. This 
continues to be a significant challenge.
    The velocity of instability around the world has increased. 
The Army is now operating on multiple continents simultaneously 
in ways unforeseen just a year ago.
    Our adversaries continue to invest in technology to counter 
or evade our strengths, and what used to take our enemies 
months and years to disrupt may now take only days.
    The Army has developed a new Army operational concept, 
``Win in a Complex World,'' to address this new environment. 
Within the Army, however, the research, development, and 
acquisition accounts are 34 percent less in fiscal year 2016 
than we projected just 4 short years ago, adding to this 
challenge.
    Despite this dramatic reduction in our modernization 
accounts, the Army leadership has continued to protect the 
science and technology investment as the key to the Army of the 
future. The S&T enterprise is committed to providing soldiers 
with the technology to win.
    The contributions from the almost 12,000 scientists and 
engineers that work within the S&T enterprise span the gamut 
from fixing immediate problems to forecasting for the future. I 
would like to take this opportunity to highlight a few of these 
areas.
    The Army relies on our science and technology enterprise to 
rapidly solve current problems for our troops in the field--
problems such as redesigning body armor to better fit female 
soldiers in Afghanistan. These soldiers were faced with armor 
that caused abrasions, restricted their movement, and even 
impacted their ability to correctly seat their rifles on their 
shoulder when shooting. The S&T community developed an armor 
system designed to fit smaller torsos, which is now becoming 
the new standard for female soldiers today.
    We are also called upon to improve our current system 
capability. Efforts like the Advanced Affordable Turbine 
Engine, now the Improved Turbine Engine program of record, will 
provide Apache and Black Hawk critically needed operational 
improvement in both hot and high altitude conditions.
    We also drive down risk for emerging programs of record by 
bringing forward new capabilities that are not only 
technologically achievable, but also affordable. Our efforts 
with the Third Gen FLIR, forward-looking infrared, are a great 
example of where we developed a technical solution that gave us 
increased range for both detection and ID [identification]--
range that exceeds that of our enemy--while investing in the 
manufacturability of this system to provide an unprecedented, 
affordable, all-weather capability that recently transitioned 
into the I-FLIR program of record.
    Before a program even gets started, however, S&T provides 
the technical understanding of the art of the possible, 
ensuring our requirements are both achievable and affordable.
    Our Joint Multi-Role [JMR] Technology Demonstrator effort 
will produce two flight demonstrators in fiscal year 2017 to 
inform affordable requirements for the Department of Defense's 
next-generation rotorcraft. The Future Vertical Lift planned 
program of record is envisioned to meet 70 percent of the 
current DOD rotorcraft needs, and the JMR Tech Demo is ensuring 
that we get these requirements right.
    With an increasingly adaptive enemy, one who has watched 
how the U.S. fights for the past 13 years, it is imperative for 
us to understand our own technology and system 
vulnerabilities--those aspects that could be exploited and used 
against us. Our Army science and technology enterprise has 
embraced this challenge, as well.
    A key aspect of this initiative is red-teaming, challenging 
our systems with an emulated enemy--one who can use innovative 
and adaptive methods to disrupt our planned capability. These 
efforts have the potential for significant cost savings, as 
vulnerabilities are mitigated before system designs are 
finalized and systems are fielded.
    We also work to understand the global technology 
environment by establishing tighter connections to each other 
through Reliance 21, that you just heard about, through 
increasing our engagement with the Intelligence Community and 
accessing nontraditional thinkers through our technology war-
gaming, focused on what could be possible in the 2030 to 2040 
timeframe.
    Finally, we continue to seek and develop new and game-
changing technologies for the future. For instance, our 
``materials by design'' basic research effort will provide the 
capability to select and create material properties and 
responses, essentially building new materials from the atom up.
    Of course, none of this would be possible without the 
scientists and engineers that make up the Army S&T enterprise. 
I am honored to represent the men and women who apply their 
expertise on a daily basis to creatively solve difficult 
national security challenges and provide the flexibility and 
agility to respond to the many challenges that the Army will 
face.
    Our focus remains on our soldiers. We consistently seek new 
avenues to increase the soldiers' capability and ensure their 
technological superiority today, tomorrow, and decades from 
now.
    Thank you again for all that you do to support our 
soldiers. Thank you.
    [The prepared statement of Ms. Miller can be found in the 
Appendix on page 52.]
    Mr. Wilson. Thank you very much, Ms. Miller.
    We now proceed to Admiral Winter.

   STATEMENT OF RADM MATHIAS W. WINTER, USN, CHIEF OF NAVAL 
                            RESEARCH

    Admiral Winter. Good morning, Chairman Wilson and Ranking 
Member Langevin, and distinguished members of the subcommittee. 
As previously mentioned, I am Rear Admiral Mat Winter, the new 
Chief of Naval Research [CNR], and it is an honor to address 
you all and discuss our Department of the Navy's science and 
technology investment strategy, which, I will add, is fully 
supported by the President's fiscal year 2016 budget request.
    Though I have only been the CNR for less than 90 days, I 
have had years of experience in the science and technology 
arena as a producer and as a consumer; as a scientist, a 
computer scientist, and a mechanical engineer by trade; as a 
combat A-6 Intruder bombardier/navigator and as a major weapons 
program manager; also a Naval Warfare Center commander at China 
Lake and Point Mugu; and most recently as our PEO [program 
executive officer] for unmanned aviation and strike weapons.
    With that experience, I come to the table in this job with 
a unique perspective that understands explicitly how our S&T 
investments enable our workforce to discover, develop, and 
deliver the breakthrough technologies to support our sailors 
and marines, which is absolutely essential. They operate in 
what I refer to as our three fleets: the current fleet 
underway, the fleet under development, and our future fleet. It 
is absolutely imperative that we have a strategy that links 
these three fleets together fiscally, operationally, and 
technically.
    We recently released our Department of the Navy updated S&T 
strategy that does just that. It focuses our efforts into nine 
relevant, game-changing research areas to provide that clarity 
to the research enterprise and the broader S&T community that 
includes our academia and our small business industry partners.
    Additionally, the strategy defines our workforce engagement 
and development initiatives to build a strong, knowledgeable 
workforce based on the fundamentals of STEM [science, 
technology, engineering, and mathematics], ensuring that we 
have the relevant intellectual capital to solve our hardest 
problems. This strategy guides our planning, execution, and 
decision-making to ensure we have the right people with the 
right skills in the right jobs, and the organizational 
alignment to ensure efficient execution, communications, and 
decisive leadership.
    To that point, I am a goal-oriented leader. I hate 
inefficiencies.
    I am executing our S&T mission with the required rigor and 
accountability so our warfighter maintains that decisive 
technological advantage to fight the fight and keep the peace. 
But as equally important, it is--we need our scientists and 
engineers to maintain the decisive technological advantage in 
our laboratories.
    In the 85 days I have been on this job I am coming to 
realize what an honor and privilege it is to lead this 
incredible team of over 4,000 technical professionals in the 
naval S&T community across our Naval Research Enterprise and 
those embedded with our academia and industry partners. By all 
measures--and since I am an engineer, I like to measure 
things--the work they are engaged in is some of the most 
influential and game-changing technology research in the 
Department and albeit around the globe.
    For example, the demonstrated and revolutionary 
electromagnetic railgun; our breakthrough, game-changing, 
forward-deployed laser cannons, that has been mentioned 
previously; the medical research focused on traumatic brain 
injury solutions; advanced materials research; synthetic 
biology; advanced algorithmic autonomous behavior; 
electromagnetic warfare--it goes on and on.
    My scientists are making contributions that are making 
marked differences not only to our warfighters, which is 
important, but to our Navy and Marine Corps and this great 
country. How do I come to that conclusion? As an engineer--and 
I like to measure things--but I like metrics. We have got to be 
able to measure things and show progress.
    Our S&T domain, though, really is a squishy area of basic 
and applied research. With flubber and flux capacitors, hard to 
put metric to those types of investments.
    So how do we do that? Some would say it is transition of 
S&T products to get to our warfighters.
    That is true, but I don't think that is the complete 
answer. I think we need to look at all of the spectrum of S&T 
transition.
    I can point to our Department of the Navy S&T metrics that 
show 87 percent of our S&T products transition into 
acquisition, and the majority of those transition to the 
warfighters' hands. That is not trivial, and that is a good 
success rate.
    But there is 13 percent, and those will be looked at as 
failures. I say it is different. I say that gives us latent 
benefit.
    That 13 percent provides new knowledge that has never been 
known before. It allows us to populate the intellectual capital 
to solve hard problems, manifests into over 60 Nobel Peace--
Nobel Prize winners. We also have 300-plus patents a year in 
the Department of the Navy that make sure we husband our 
intellectual capital and continually get return on investment.
    And we also transition technologies to the shelf. They are 
on the shelf so that when an emerging requirement manifests 
itself, we have a ready-to-go solution to transition. So that 
is a transition--latent transition activity, as well.
    The problem I see as we bring that together is the ``Valley 
of Death'' is more of a moat, and it is a bridge, and it is 
something that we need to continue to work through together. To 
that end, it is apparent that we don't--we leave nothing to 
waste.
    When you visit our Navy and Marine Corps, everything you 
see originated at some level with S&T--everything from Old 
Ironsides to the first radars, from nuclear propulsion to our 
biofuel alternatives, from the Sidewinder missile to the RGPS 
[Relative Global Positioning System] capabilities and railgun 
and lasers. All have the origins within the Naval Research S&T 
domain, and we are proud of that.
    These are relevant technological successes. Some are old, 
some are new, but they are a true cumulative impact from 
discovery and invention, to application and experimentation, to 
demonstration and fielding. They work.
    And our naval scientists, along with our small business 
industry partners and our academia university colleagues here 
and around the globe, make it happen. I invite you and your 
staffs to come join us and observe firsthand, in our Navy 
Warfare Centers and our labs, the technologies and the 
accomplishments that our scientists are executing.
    We will continue to pursue our S&T efforts with innovative 
research and disruptive thinking, always trying to make 
existing systems more effective and affordable. That is very 
important.
    And in doing so, we remain aligned to our senior 
leadership. The CNO [Chief of Naval Operations] and 
Commandant's recently released ``Cooperative Strategy for the 
21st Century Seapower'' is underpinned by this S&T strategy.
    We can't afford to do business as usual--just can't do 
that. And we can't wish away the technological advantages of 
emergent global actors that are challenging our warfighting 
supremacy.
    The CNO's strategy provides us the framework to think and 
act differently, and we are. We must be committed as a country 
to pursuing the technological solutions for tomorrow today.
    It is essential to tie that technical to the tactical to 
the strategic, and we in the Navy and the Marine Corps are 
committed to ensuring our S&T resources that you and your 
congressional colleagues provide us gets the most bang for the 
buck by giving our sailors and marines that technological 
advantage on the battlefield.
    Ladies and gentlemen, I thank you for your time and your 
continued support of our S&T efforts, and I look forward to 
taking your questions. Thank you.
    [The prepared statement of Admiral Winter can be found in 
the Appendix on page 70.]
    Mr. Wilson. Thank you, Admiral Winter.
    We now proceed to Dr. Walker.

STATEMENT OF DR. DAVID E. WALKER, DEPUTY ASSISTANT SECRETARY OF 
     THE AIR FORCE FOR SCIENCE, TECHNOLOGY, AND ENGINEERING

    Dr. Walker. Thank you, Chairman Wilson, Ranking Member 
Langevin, and members of the subcommittee. I am pleased to have 
the opportunity to provide testimony on the Air Force's fiscal 
year 2016 science and technology program.
    This has been an exceptional year for science and 
technology in the United States Air Force. Last summer our 
Secretary and Chief published a new ``America's Air Force: A 
Call to the Future''--a 30-year strategy for the Air Force, 
which really highlights science and technology and how it is 
required to achieve the strategic goals that they set forward.
    Our fiscal year 2016 President's budget request is an 
increase of 14 percent over our previous request, at a $2.4 
billion level. The Air Force leadership recognizes the 
excellent work that S&T has done in the past and recognizes the 
need for S&T to achieve the future they want. And 
characterizing our S&T program, Major General Masiello, the 
commander of the Air Force Research Lab, has put it in three 
Rs: responsive, relevant, and revolutionary.
    The responsive piece is, how do you be responsive to the 
warfighter's need in the field today? An excellent example of 
this is a--Air Force S&T provided a capability to the special 
operations troops operating in Afghanistan by integrating the 
sensor payload onto a tactically remote piloted vehicle that 
provided a unique and unprecedented capability for identifying 
IEDs [improvised explosive devices], weapons caches, and enemy, 
and has resulted in significant support within the theater.
    On the revolutionary front, the adaptive engine technology 
that Mr. Shaffer addressed earlier is one of the great 
revolutions coming out that will really change warfighting by 
providing significant fuel efficiency in addition to greater 
thrust out of the existing family of fighter engines. This has 
grown out of an ADVENT program, our first program which was 
pure S&T. That program completed last summer and has proven a 
greater than 20 percent savings in fuel just from an S&T large 
engine buildup that we ran with General Electric.
    The follow-on to this is the Advanced Engine Technology 
Development program, which is ongoing this year and next year, 
which will continue to move forward this technology. And then 
as part of the Aerospace Innovation Initiative, under the 
Defense Innovation Initiative, we have the follow-on program, 
which is the Advanced Engine Transition program.
    These really promise to bring this technology not only 
through the S&T, but on forward into actual prototyping to 
prove that this technology in a full-up flight-sized engine 
really works.
    The one problem, of course, is under the BCA [Budget 
Control Act] that--the AETP program, the follow-on program, is 
still above the BCA levels.
    Another revolutionary area we are working is in 
nanotechnology. One of the game-changers that we are working 
right now is in flexible, wearable sensors--the ability to put 
a bandaid-like patch onto an individual and be able to detect 
fatigue, cognition, their performance indicators, by pulling 
biomarkers through the skin. This is enabled by the 
nanoprinting of nanoparticle inks onto these markers and 
actually building up smart electronics into a bandaid-like, 
flexible, electronic patch.
    Has great future not only for the Air Force and how we use 
it, but all the services, and for the medical industry as a 
whole, so there is tremendous capability that we are working.
    We are also addressing relevant warfighter needs. This is a 
problem that, as you work in the midterm requirements--near and 
midterm requirements--how do we make sure that what we are 
doing in Air Force technology is really supporting what the 
warfighter needs?
    A good example of this, and working with the Air Combat 
Command [ACC] and their desire to go after hard and deeply 
buried targets with existing capability on existing airplane 
platforms, we need to have smaller, more compact systems. So 
the High Velocity Penetrating Weapon was a program that we put 
together to do this. Been very successful, and now it has 
transitioned that technology into the follow-on program that 
ACC is now looking at in their AOA [analysis of alternatives].
    We also last July launched the ANGELS, or the Automated 
Navigation and Guidance Experience for Local Space, which is 
really focused on how do we do geosynchronous space situational 
awareness, which requires somewhat of an autonomous capability. 
So the ability to detect, track, and characterize space objects 
on geosynchronous is really moving us forward in our capability 
for the space situational awareness of the future.
    To do this we really have to have a talented workforce. We 
have taken advantage of the new authorities that have been 
given to us by the HASC [House Armed Services Committee] and 
the SASC [Senate Armed Services Committee].
    In addition, we built a strategic plan both for building 
our engineering workforce, but also for helping build the STEM 
workforce across the Air Force as a whole, really trying to 
build the STEM ambassadorship of the Air Force across the 
Nation to develop the talent that we need.
    In closing, the Air Force 2016 President's budget really 
requests the science and technology to make sure that we can 
remain responsive, revolutionary, and relevant in the future. 
On behalf of the scientists and the engineers of the Air Force 
S&T enterprise, I want to thank you for your continued support 
of our S&T program and look forward to any questions you have.
    Thank you.
    [The prepared statement of Dr. Walker can be found in the 
Appendix on page 97.]
    Mr. Wilson. Thank you, Dr. Walker.
    We now proceed to Dr. Prabhakar.

 STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Prabhakar. Thank you, Mr. Chairman, Mr. Langevin, 
members of the subcommittee. It is great to be here with my 
colleagues and I appreciate the chance to talk with you today.
    DARPA is part of this Defense Department science and 
technology community; we are also part of the larger national 
and global technology ecosystem. But within those communities 
DARPA has one particular role, and that is to make the pivotal 
early investments in new technologies that show what is 
possible so that we can take huge strides forward in our 
national security capabilities.
    And I will just share with you this morning a couple of 
brief examples that I hope will bring that mission to life. One 
is some of our work that is being put to work in one of today's 
challenges--namely, the fight against ISIL [Islamic State of 
Iraq and the Levant]. This program that these tools derive from 
is called Memex.
    Memex set out to build some software tools that allow for a 
very different kind of search through public Web sites--deep, 
domain-specific search. So what that means is that a user using 
these tools, it lets them do two new things.
    One is to see Web sites out beyond those that are indexed 
by commercial search engines like Google or Bing--public Web 
sites, but those that aren't really reached by these commercial 
search engines. And then secondly, this tool automatically maps 
patterns and linkages, relationships across vast numbers of Web 
sites--very enabling, powerful technology for analysts.
    These technologies, these tools, have already been used by 
the law enforcement community in some work in the arena of 
human trafficking. That has led to indictments and at least one 
conviction.
    Today the same tools are in operational use to understand 
linkages among ISIL Web sites, as well.
    A second very different example is about driving U.S. 
technological superiority to--so that we can deter or defeat a 
sophisticated peer adversary. And, you know, I think we all 
know that ever since radar helped win the Battle of Britain, we 
have all understood that controlling the electromagnetic 
spectrum is foundational to warfighting.
    And in fact, today U.S. military RF [radio frequency] 
arrays are the envy of the world. That is not by accident; it 
is because of the joint investments in S&T across all of our 
activities here represented at the table.
    And I think that is a tremendous advantage that we have, 
but it is also the case that the rest of the world doesn't 
stand still, and so today we see other capabilities developing 
around the world that put our advantage, you know, at risk. So 
today what that--you know, what that translates to is that in a 
highly contested environment against a sophisticated adversary, 
they will now have the ability to jam our systems, essentially 
rendering our forces blind in the heat of battle.
    So one of the efforts that is underway at DARPA today, in 
close partnership with our service colleagues, is really to 
create the next generation of capability for controlling the 
electromagnetic spectrum. This is new work at the level of 
devices, new systems architectures, new algorithms, new 
manufacturing technologies, all of which together I think can 
give us a chance to move into a future--not just a future where 
we can operate in the electromagnetic spectrum, but a future 
where we can control the electromagnetic spectrum in real time 
in the battlespace, and I think giving us that--the kind of 
substantial advantage that all of our investments are really 
about.
    Those are just a couple of examples across a much wider 
portfolio at DARPA. You have our new report that just came out 
that offers a broader perspective across the portfolio. I am 
happy to talk about any of that.
    But I also want to take a couple minutes and talk with you 
about what it takes for us to deliver on our mission. Your 
support in so many ways across many years has been essential to 
that.
    First and foremost is our people. We have had a flexible 
hiring authority that this committee helped create a number of 
years ago. Last year in legislation you allowed us to use more 
of our positions within our fixed head count using this 
flexible technique.
    And this is a--this hiring authority is just essential for 
everything that we do at DARPA. It lets us get access to the 
kind of people who have the potential to be really great DARPA 
program managers, and that really is our lifeblood. So I am 
very appreciative for your support of that capability.
    Secondly, turning to the budget, again, your support in 
recent years has been critical to stabilizing our budget post 
sequestration, and the President's budget request this year at 
$3 billion essentially continues that stabilization. It is 
essentially, in real terms, the same level as what was 
appropriated last year.
    Again, I will ask for your support of the President's 
budget-level request.
    And I don't have to tell you about sequestration, Mr. 
Chairman. You mentioned it in your opening remarks, but you 
know well that if we can't avert sequestration it will take a 
significant toll on the work that we are doing.
    Let me just finish by saying that my comments today have 
focused on the challenges that face our Nation today and into 
the future. All of us here at this table take those threats 
very seriously.
    At the same time, for us we are very fortunate that our 
daily work is about solutions, and all of us come to work every 
day to find creative ways to rise above these dangers. And 
because of that, it is our responsibility but also our 
privilege to do this work of harnessing advanced, powerful 
technologies for our Nation's security.
    So thanks again for the chance to be here with you. I am 
happy to answer questions along with my colleagues.
    [The prepared statement of Dr. Prabhakar can be found in 
the Appendix on page 103.]
    Mr. Wilson. Thank you, Dr. Prabhakar.
    And indeed, we have been joined by the ranking member. He 
got here within 14 seconds of the beginning of the hearing.
    Mr. James Langevin.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman. And I apologize for 
being a little bit late.
    I was actually off site with Bloomberg News doing an 
interview and talking about one of our favorite topics--
cybersecurity. And it ran just a little bit behind.
    But I do want to thank you, Mr. Chairman, for holding this 
hearing today.
    And, of course, I want to thank our witnesses for being 
here to discuss the Department of Defense's science and 
technology budget request for fiscal year 2016, and I 
appreciated hearing your testimony here this morning already.
    Maintaining the United States technological edge is a 
priority for the House Armed Services Committee and, most 
especially, for this subcommittee. And I thank my partner and 
the leader in this effort, Chairman Wilson.
    As budgets grow smaller we recognize the necessity of 
continuing a robust investment in S&T. The seeds of innovation 
that we plant with our investments today grow into the game-
changing capabilities of tomorrow.
    Conversely, if we fail to properly invest, we will be 
dealing with the consequences for decades. Emerging 
technologies born of past and current investments, like 
directed energy and other high-energy weapons, have the 
potential to deliver paradigm-shifting capabilities to our 
warfighters that in many ways upend traditional warfighting 
concepts and tradeoffs.
    And, Secretary Shaffer and others, I appreciate you 
mentioning those capabilities today, particularly on directed 
energy.
    So these capabilities not only give us a warfighting 
advantage, but can serve as a deterrent to our adversaries. 
Today we are engaged around the globe with enemies like Al 
Qaeda and ISIL, its associate affiliates, and other terrorist 
groups. Our S&T investments over the last decade have been 
instrumental in delivering the capabilities our forces need to 
defeat such enemies and protect them from rudimentary yet 
effective weapons like improvised explosive devices.
    Other potential adversaries require different capabilities, 
some more suited to traditional warfare concepts and others 
more--for more unconventional warfare, like cyber. Ensuring our 
investments align with requirements is key, and I look forward 
to continuing to discuss and hear from the witnesses about the 
Department's approach to emerging challenges and new domains.
    In addition to investing in technology, we must invest in, 
of course, our workforce and our future workforce. Recruiting 
and retaining top talent in the Department's S&T community is 
truly a bedrock of maintaining technological superiority.
    Now, over the years the Congress has provided the 
Department of Defense with many tools to do just that through 
IPA [Intergovernmental Personnel Act] programs, internships, 
and other unique personnel opportunities. I know you each in 
your various ways are engaged in growing that workforce, and I 
appreciate those efforts.
    Also crucially important to our technological superiority 
is ensuring that the Department has knowledge of the innovative 
work being done by entities other than large corporations 
typically associated with defense, and that it is able to 
transition that work to become new capabilities.
    Opportunities provided under the auspices of programs such 
as the Rapid Innovation Fund [RIF] of course have proven to be 
a win-win for the Department, small businesses, labs, and our 
warfighters. As the witnesses are no doubt aware, the Rapid 
Innovation Fund program authorization will expire at the end of 
this fiscal year, and I am certainly committed to reauthorizing 
this program and would appreciate if the witnesses could 
provide their thoughts on the success of this program and 
examples for the record.
    With that, let me just again thank you all for the work 
that you are doing. I think that this subcommittee is one of 
the more interesting in Congress, and I know you all appreciate 
the work that you do and that of your workforce, and I hope you 
will convey our appreciation to the people that you oversee.
    With that, Mr. Chairman, I want to thank you for, again, 
holding this hearing, and I yield back.
    Mr. Wilson. Thank you very much, Mr. Langevin.
    And we will now begin the 5-minute process, and Kevin Gates 
is going to be strict, including on me in particular because we 
have votes any second, and so we are always at the will of how 
the votes occur.
    I think it is very appropriate, Mr. Shaffer, that you 
actually began with military medicine. The American people need 
to know the survival rates that have been achieved, which are 
unprecedented in conflict.
    It was so inspiring to me visiting the theater field 
hospitals, visiting Landstuhl, visiting Bethesda, Walter Reed, 
and to see the survival and then the prosthetics that were 
developed so that young people who were injured had--and--have 
fulfilling lives, and to see people with injuries that are just 
utterly catastrophic by barbarians who, as cited by Jim, the 
improvised explosive devices--these were designed as 
unprecedented, I believe, ever for the maximum personal injury 
of not just military but civilians. Just a heinous enemy that 
we are facing.
    But the success, and so by beginning with that was 
fantastic.
    We actually, with your help, we have made progress relative 
to the issue of defense sequestration. Initially most people 
couldn't even pronounce the word ``sequestration,'' and then--
but the good news is that, particularly now, the American 
people I think understand the threat of defense sequestration, 
where half of the sequestration is in one department--
Department of Defense--and the effect that this has with the 
other budget cuts that have been implemented.
    But, in fact, as an indication of success--and 2 months ago 
I wouldn't have thought this, but last night we had a vote on a 
budget that would actually substantially roll back 
sequestration. But the way that we have been successful is not 
just generically discussing the threat, but specifically.
    So if each one of you could identify a specific example of 
where sequestration will lead to a problem, and beginning with 
Mr. Shaffer.
    Mr. Shaffer. Thank you very much, sir. And thank you for 
the vote last night.
    I think that there are two real issues with sequestration. 
First, with all the must-pay bills, as Dr. Carter noted, over 
half the cuts of sequestration would come from modernization 
accounts. Embedded in that are some of the things that you 
heard about today that would go away.
    So the Aerospace Innovation Initiative, which actually has 
two stools underneath it--this is a DARPA-led, for right now, 
DARPA-Air Force-Navy program that is designed to build the next 
generation prototype flying platform, and that is about all we 
can say about that. But also, the next-generation turbine 
engine that will give us 25 to 30 percent savings. Both of 
those projects will end.
    The real ripple effect is with the reduction in procurement 
accounts and the reduction in our 6.4 and 6.5 accounts. 
Engineers are being laid off. Once you lose the design 
engineers in the aerospace industry and the turbine engine 
industry they don't come back.
    So think about a Department of Defense with no significant, 
long-term research project for the next generation of air 
capability. That is what sequestration means, sir.
    Mr. Wilson. The morale effect, I can't even imagine.
    Ms. Miller.
    Ms. Miller. I will echo what Mr. Shaffer said. Clearly 
sequestration will impact yet again our modernization accounts.
    We are in a situation where we have to have force structure 
and operational readiness. We have to support our soldiers that 
are out there on the line, and we will.
    But what we sacrifice is those improvements to our existing 
capability, the restoral of the capabilities that are coming 
back out of theater now that we are committed to restoring so 
we can utilize.
    But I will take you in another direction. We had a dramatic 
impact on our workforce with the last sequestration, and even 
the indication that we might do this again, we are already 
starting to see indications that our workforce, which has been 
under a considerable amount of strain and still doing what 
needs to be done to protect our soldiers, they are now looking 
at whether or not it is really worth staying.
    And so I expect that we will lose, again, some of our best 
and brightest engineers because they will either look for more 
security somewhere else or, frankly, we have got a large 
contingent that are close or eligible to retirement that will 
choose to do so without passing on that extreme knowledge that 
we need to pass down to our younger generation.
    We are currently still under a hiring limitation. It is a 
one-for-six for the Army; we can only hire one when we lose 
six. That is a dramatic impact on our ability to make sure we 
keep the best and brightest available for meeting the needs of 
the Army.
    Thank you, sir.
    Admiral Winter. Mr. Chairman, I will echo--the workforce is 
definitely a critical area, but I won't just repeat that. I 
will go towards a naval optic.
    As we focus to our Pacific operating area, if our 
modernization accounts are reduced, those programs of record 
that are delivering naval capabilities for our marines and our 
sailors are underpinned by our S&T investments of our 
technology maturation future naval capability efforts. Those 
naval capability efforts are ensuring that we maintain and 
expand our undersea domain supremacy, which is absolutely 
critical for that area of operations.
    Likewise, being able to ensure that we can have power 
ashore with our marines, enabled by those systems, will all be 
at risk as those modernization accounts are reduced and the 
effectivity of our S&T investments to be able to bring long-
range torpedo, underwater unmanned vehicle constellations, 
communication--over-the-horizon communication and targeting for 
at-range threats, being able to bring the ship connector 
capabilities with our marines and our Navy vessels. They are 
all at risk, sir, and our S&T investments will not be able to 
enable that technological advantage.
    So coupled with the workforce degradation and our ability 
to do the true, I will say underwater and electromagnetic 
warfare efforts--that would be the biggest impact to the 
Department of the Navy.
    Thank you, sir.
    Mr. Wilson. Doctor.
    Dr. Walker. I want to echo on the workforce impact is the 
biggest impact I see that will have a lasting effect if we go 
through a sequestration again. We are still feeling the impact 
of that today in our workforce from the previous sequestration 
we went through.
    As we go forward, the modernization accounts will pay the 
brunt of this in the Air Force for the same reasons that my 
colleagues have already spoken of.
    On the S&T side, we are right now transitioning this engine 
technology out of S&T into a 6.4 program. That will be lost, 
losing that ability to bridge out of S&T, which we are trying 
to build.
    Furthermore, some of our programs which are in the 6.3 
level in S&T and high-powered microwaves and advanced lasers 
upon aircraft will also suffer significantly if we go back into 
sequestration again.
    Mr. Wilson. Thank you for the specifics.
    And, Dr. Prabhakar.
    Dr. Prabhakar. I will mention three specifics. One thing we 
found a few years ago in sequestration is that at the end of 
our programs, when we were prepared to do flight demos or 
trials at sea, one of the big problems we had was that because 
of sequestration those trials got delayed. And then the follow-
on effect, because of the way we work with the services at test 
ranges, et cetera, often that led to not only delays but, in 
fact, overall increased costs, which was quite deleterious.
    Our workforce issue is very similar. For us, our people 
come only for 3 to 5 years, so it is somewhat of a retention 
issue, but really the bigger problem is trying to recruit 
people into this sort of tumultuous environment is not very 
helpful.
    And I think to me the most fundamental danger in these 
process--none of these specific cuts are the end of the world. 
The problem is that they just continue this erosion, this 
corrosion of our ability to do our mission. And a lot of our 
focus is to reach out to a very broad technical community, 
engage them in this important business of national security. 
When things like sequestration happen it is such a negative 
message to people who don't already live in this world and whom 
we really need to attract to this mission.
    Mr. Wilson. Thank each of you.
    And we now proceed to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again, thanks to all our witnesses for your testimony.
    So for the panel, the Rapid Innovation program, which I 
spoke about in my opening statement, as you know, was 
authorized in section 1073 of the National Defense 
Authorization Act for fiscal year 2011. The merit-based, 
competitive program accelerates the fielding of technologies 
into military systems in support of requirements, and there are 
so many examples of successful projects, such as the Navy's 
port security barrier intrusion detection system, which helped 
mitigate gaps in the system from being exploited.
    As I stated in my opening remarks, I am championing 
reauthorization for the Rapid Innovation Program since it 
expires at the end of this fiscal year. Let me ask, in your 
opinion, has the program been valuable to the Department, and 
how so?
    Mr. Shaffer. Yes, sir. Thank you.
    RIF has, indeed, been valuable. We held maybe a month ago, 
maybe 6 weeks--time kind of blurs together--we held our annual 
review of the RIF program. And now we are far enough into it 
that we are starting to see the results.
    So we are getting about, on the whole, 60 to 70 percent 
transition rate. I think we are also getting to reach out and 
touch companies that might not otherwise want to work with the 
Department of Defense.
    And the program has been kind of transformed over the last 
3 years, where it is jointly run by acquisition and S&T people. 
In fact, the funding is not in the S&T lines; it is in the--our 
6.4 accounts, our advanced capability development and 
prototyping accounts.
    And we put it there specifically to bridge that gap of 
getting good, new technologies into our acquisition programs of 
record, but using the intelligence and the smarts of our S&T 
community to manage and conduct the source selection.
    So I am seeing very positive things from it. Mr. Kendall, 
my boss, has asked me for a recommendation, and depending upon 
what--where we end up with for funding targets for the year, we 
are going to try to fund it ourselves. Don't know if that will 
happen, but we are going to try.
    Mr. Langevin. Thank you. That is very helpful.
    Ms. Miller. Within the Army I would say that we are finding 
RIF is an added flexibility that we might not otherwise have. 
As Mr. Shaffer mentioned, it allows us to reach those 
industries that we might never have otherwise engaged or been 
able to engage because, you know, we are kind of the big Army 
and looking for big things.
    But some of the efforts that we have put out there, we kind 
of laid out to industry what our problems were and we got some 
interesting approaches on how to solve them. And I will give 
you two examples of success.
    We had a small company that looked at a problem that we had 
with our FMTV [Family of Medium Tactical Vehicles] systems. We 
were up-armoring the cabs of our FMTV--and that is a good 
thing, protecting the soldiers. However, over time the doors on 
the FMTV started to sag, and we were causing damage to the 
added weight on the cab frame.
    So we put out a problem and got a response through the RIF 
process that gave us a cab-stiffening assembly that passed all 
of our tests so far. We have now transitioned it to the PM 
[program manager] for FMTV; he is going under--undergoing 
testing to see whether that will now become part of his program 
of record to retrofit onto those existing FMTVs that have up-
armored cabs. And that was on the order of about a $2.5 million 
investment from us in the RIF, and well worth it.
    Another quick example is a handheld, pocket-sized 
quantitative electroencephalogram. It is essentially this 
weird-looking thing that slips over your head and you can use 
it in the far-forward theater.
    What it is helping us to do is provide an objective 
assessment on neurological injury. So this is kind of the far-
forward idea, are we--did we get some sort of mild traumatic 
brain injury? Is there something that would warrant our soldier 
now getting a more rigorous look by a medic? Something that we 
need to know to make sure that we have provided appropriate 
health care for the soldier in the far-forward environment.
    Just two examples, sir.
    Mr. Langevin. Great examples. Thank you.
    Admiral.
    Admiral Winter. Sir, I will echo--RIF is very value-added. 
And as a previous program manager, the flexibility of not just 
having resource, but having a resource that allows you to go 
tackle those design issues that you would otherwise wait at a 
future spiral, allows you to pull in capabilities sooner to 
your warfighter.
    Examples like our Navy high-energy chiller that allowed us 
to identify a smaller size and weight and footprint to be able 
to cool our high-energy avionics electronics on ships. That 
small investment of a hundred--couple hundred thousand dollars 
will show huge dividends downrange for the recurring costs for 
all of our ships.
    And the ability of the program manager to reach out to 
small business--and 90 percent of our engagement in RIF for the 
Department of the Navy is with small business. And that is a 
tenet from Mr. Stackley on down, to engage at that small 
business base.
    Things such as our verification and validation 
capabilities. Right now we have to put things on jets, go out 
and check and see if they fit in the aerodynamic environment. 
We populate those aircraft with very expensive verification and 
validation instrumentation suites.
    We gave that challenge to a very small--to a small 
business. They came back with a USB [universal serial bus]-
sized stick--solid state, vibratory, wireless verification and 
validation capability, that for about $300,000 we are saving $5 
million a year.
    So that kind of innovative thinking that is facilitated by 
a very small investment from a RIF perspective, giving not only 
program managers but small industry the flexibility and the 
opportunity, and I think we need to continue this program.
    Thank you.
    Mr. Langevin. Very valuable. Thank you.
    Dr. Walker. The RIF has been very useful to the Air Force, 
as well, particularly in bringing in new and innovative 
businesses to solve problems that we didn't have a solution 
for. So far, we have had over 2,600 white papers that have been 
submitted to our call. We have put out about 94 projects out of 
these papers of selecting the best and most promising ones.
    And what it has allowed us to do was to really reach out to 
nontraditional small business as well as our traditional SIBRs 
[Small Business Innovative Research] and STTRs [Small Business 
Technology Transfer] participants and help transition 
technologies into programs of record to solve problems that are 
annoying problems but we are not--have not risen to the level 
that they were actually going after them with their large 
acquisition program.
    The F-35 has been the recipient of several great ideas that 
have allowed them to reduce costs or fix problems on the 
production line that, as I say, are annoyances, but once you do 
it you realize that this is a much better way to solve the 
problem. And the leveraging for a small investment, investing 
millions to get savings in the hundreds of millions, has been 
really valuable.
    So we really do like the program. As has been said, we have 
moved this to be an acquisition program with lab support, and 
look forward to continuing with it.
    Mr. Langevin. Thank you.
    Nothing with you, Dr. Prabhakar? Okay.
    Dr. Prabhakar. DARPA is not involved in this--it is a 
services program.
    Mr. Langevin. Very good.
    Thank you all.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thanks, Mr. Langevin.
    Now proceed to Congressman Rich Nugent, of Florida.
    Mr. Nugent. Thank you, Mr. Chairman. I thought maybe it 
would be Mr. Franks first, but that is okay.
    It is in order? Okay.
    This is a question--this committee and the larger committee 
last year in the 113th Congress appropriated $220 million for 
the sole purpose of accelerating the development of a domestic 
rocket propulsion system. However, thus far, neither the Air 
Force nor the Department of Defense has moved expeditiously to 
accomplish the task.
    And since passage of last year appropriations act, I 
specifically want to know what has the Air Force done with the 
advanced liquid rocket booster engine to replace the RD-180?
    Dr. Walker. I will have to take that for the record, sir, 
as far as the acquisition program does not fall under my 
purview.
    [The information referred to can be found in the Appendix 
on page 120.]
    Dr. Walker. However, under the S&T program, which we are 
continuing, we have been working the component technologies 
that are required to enable that type of capability in the 
future. Have had a strong program over the past decade that 
will allow us then to move into an oxygen-rich liquid rocket in 
the future.
    So the investments we made in the past and investments we 
are continuing in this year's budget are really focused on 
giving us the capability to go to the next generation of liquid 
rocket engines.
    Mr. Nugent. Well, I appreciate that and certainly look 
forward to your response outside of the committee. Obviously, 
you know, it was very important to this committee that we get 
away from the Russian engine, where we shouldn't be relying 
upon that technology in particular.
    But the next question, then, is on directed energy. And I 
know the chairman and ranking member are very invested in 
directed energy.
    Last year Congress directed the Air Force to deliver a 
CHAMP [Counter-electronics High-powered Microwave Advanced 
Missile Project] system on surplus cruise missiles, and 
Congress set aside $10 million just for the purpose of getting 
the technology out of the lab and to our warfighters. We have 
had numerous combatant commanders testify to the fact that 
CHAMP would be a, you know, an excellent addition to their 
inventory, and particularly since what we are recommending is 
obviously--and I understand where the Air Force is at--they 
would like to see a long-term solution to that problem in 
regards to a delivery vehicle and maybe some additional 
upgrades.
    But, you know, we just met with the lab and folks that, A, 
have--obviously we have tested this particular item. We have 
surplus cruise missiles that were deactivated from the nuclear 
force that at least would get that technology out to our 
combatant commanders in a very short period of time.
    We have proven that it works. They have upgraded it, 
actually, from the lab.
    As a bridge to when we get this reusable delivery vehicle, 
or maybe something that we really want to have 10 years out, 
but gives a bridge right now for, you know, a fraction of the 
cost to at least get it out to the combatant commanders. To us, 
you know, S&T is so important, but we also have to be able to 
provide it out into the field, and whether it is, you know, 80 
percent, 90 percent, or 100 percent, this issue is, you know, 
if it is at least fieldable to assist those combatant 
commanders, then we ought to be doing it.
    And so we are really concerned--I am, in particular--in 
regards to that we are not--excuse me--that we are not actually 
following through when we have the ability to. Do you have an 
answer for me?
    Dr. Walker. At this point in time the Air Force is still 
looking at the technology and where the right point is to 
transition it. That said, from a science and technology 
perspective, we are looking at how do we continue to improve 
the capability? So we are leveraging the $10 million that you 
provided to, one, take the things that we saw in the 
demonstration with the CALCM [conventional air-launched cruise 
missile] size system, and to improve on those so that if we did 
decide to go with the program with the current system we would 
be able to make a better system.
    In addition----
    Mr. Nugent. I don't disagree with that. I mean, I think 
that we have the ability to do multiple things at a time, and 
one is if you can field it and get it out to the combatant 
commands, particularly with the nation-state threats that we 
face today with Russia and China, I would think it would be to 
our benefit to take advantage of at least the technology we 
have today.
    We can absolutely continue to do the research and 
development to improve it, but I also know within that short 
period of time we have also already made an improvement to the 
original CHAMP that was tested. So there are some great 
avenues.
    I would really like to see the Air Force work on that 
technology, get it out to the warfighter. Those that have 
testified in front of the main committee that--said that they 
would welcome that technology to have in their toolkit to 
protect America.
    And I know you want to do that, and I understand all the 
competing interests within the Air Force, but I would, you 
know, to the Air Force I would suggest that we absolutely, in a 
cost-effective manner, at least roll it out so our combatant 
commanders have the use of CHAMP in the future, because we 
don't know what our next crisis is going to be.
    So with that, Mr. Chairman, I appreciate your time.
    And, Dr. Walker, if you could get back to me on both of 
those issues I would appreciate it. Thank you.
    Dr. Walker. Yes, sir.
    [The information referred to can be found in the Appendix 
beginning on page 120.]
    Mr. Wilson. Thank you very much, Sheriff Nugent. And we 
appreciate your passion as a dad of service members.
    You can tell why he is into this, and so we are so 
grateful.
    We have Congressman Aguilar, of California.
    Mr. Aguilar. Thank you, Mr. Chairman. I appreciate the 
hearing and the opportunity to hear the discussion and the 
testimony.
    My first question had to do with sequestration, but I think 
that that has been tackled by the ranking member and the 
chairman quite well. And I appreciate your honesty and also the 
specifics that you have offered on programs that could face 
possible reductions. I think that is very helpful for us moving 
forward.
    Dr. Prabhakar, can I--can you tell me how that is 
pronounced first? That is my first question.
    Dr. Prabhakar. Prabhakar is correct.
    Mr. Aguilar. Prabhakar.
    Can you talk a little bit about managing risk and taking 
chances? Often government is risk-averse and safe, but DARPA 
seeks to engage, measure, and to create new capabilities. Can 
you talk about how you foster that within your department and, 
you know, what possible tools that you need in order to 
continue that mission?
    Dr. Prabhakar. Taking risk ends up being core to executing 
on our mission. We don't love risk. We actually like to try to 
beat it down and kill it off. But we need to be able to tackle 
it simply because we come to work to do the things that are 
going to have a huge impact.
    And, you know, I always tell my program managers, ``If you 
have a high-impact idea that doesn't involve taking a lot of 
risk, let's do it,'' because that is really the business we are 
in. But often, of course, as soon as you do those you have to 
move into the technologies that have a lot more risk if you are 
really going to reach for these kinds of dramatic changes in 
capability.
    So it is part and parcel of our mission. And very much to 
the nature of your question, I think it is essential for us as 
an organization to nurture the culture about being fearless 
about taking risk but then structuring programs to kill it off, 
to get--to build these technologies to a point that they are no 
longer risky, that they really can show their value so that 
they can be adopted and actually get in the hands of 
warfighters and make a difference.
    So how does that actually happen in practice? It happens in 
the way, in particular, that we structure our programs.
    Our program managers may define a very aggressive goal--
maybe it is a new way to launch satellites on orbit on a 24-
hour notice, or maybe it is a way to build a firebreak to stop 
infectious disease. It could be whatever the DARPA program is.
    But with that ambitious goal is--the program is structured 
with very carefully thought-out milestones along the way to 
tell us if we are on track, are we making progress. And that 
allows our program managers to stop the projects that aren't 
working, redirect the efforts to more fruitful areas. When we 
see something that is working it allows us to put more resource 
and move faster in that area.
    And that kind of very hands-on, structured program is how 
we try to make that journey from high-risk to actually 
achieving the impact.
    Mr. Aguilar. Additional tools that you think might be 
necessary moving forward that can maintain that culture?
    Dr. Prabhakar. You know, the tools that this committee has 
already helped us with I think are critically essential--number 
one, bringing in people from all different parts of the 
technical community. Not just those who already live in the DOD 
S&T world, but people who come with backgrounds in commercial 
companies or having done startups or people out of 
universities--those different perspectives are very helpful.
    Our ability to contract with entities that aren't normally 
in the business of doing business with the Federal Government 
through other transactions authority, that is another way that 
allows us to reach farther in terms of technology and, you 
know, get access to some of these bleeding edge technologies.
    So I think a lot of the critical pieces are in place. I 
will tell you the single most important thing to allow us to 
keep taking risk is when we fail and when our projects don't 
work to--you know, we try to acknowledge that and say, ``Yes, 
it--that didn't work. We stopped it; now we are going to move 
on to something more productive.''
    And I think when--your allowing us to fail so that we can 
keep going and take that next step is actually the most----
    Mr. Aguilar. We need to be able to embrace that 
occasionally, as well. So thank you very much.
    I will yield back, Mr. Chairman, so someone else can get a 
question.
    Mr. Wilson. Thank you very much.
    And in consultation with the ranking member, what we would 
like to do is, Mr. Franks and Ms. Stefanik, if each of you 
could ask a question and then they could get back for the 
record?
    Mr. Franks. All right.
    Mr. Shaffer, I guess I will start with you. And I thank 
you, again, for your great service.
    What do you think the earliest we will be able to find an 
operational laser or high-powered microwave weapon, and 
especially as it relates to the laser and missile defense? And 
what additional resources would you need to either accelerate 
the development or to mitigate or down the technical risk?
    Mr. Wilson. And you can get back for the record and--
because we are in the midst of voting, and so thank you so 
much, Congressman Franks.
    [The information referred to can be found in the Appendix 
on page 120.]
    Mr. Wilson. And, Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chair.
    My question is for Ms. Miller. I represent the Army 10th 
Mountain Division based at Fort Drum, and this division, as you 
know, has continuously served in Afghanistan from 9/11 until 
today.
    Would you be able to discuss how the Army S&T enterprise is 
being utilized for the current mission in Afghanistan, and 
particularly in terms of the drawdown? Thank you.
    [The information referred to can be found in the Appendix 
on page 121.]
    Mr. Wilson. Thank you very much, Ms. Stefanik.
    We have one final question from Mr. Langevin?
    Mr. Langevin. Thank you, Mr. Chairman.
    And again, thanks to our panel for the discussion this 
morning.
    So again, if you could get back to me on the record, just 
given the fact that time is tight. I was pleased to see Deputy 
Secretary Work's memo of March 17th creating the Electronic 
Warfare [EW] Executive Committee largely in response to the 
Defense Science Board's EW study, which pointed to lost focus 
on EW, particularly at the merge points of EW and cyber.
    So I couldn't agree more with the need for more focus on 
these issues and the need for strong, intellectually vibrant 
and technologically superior electronic warfare community.
    How do each of you see the creation of this organization 
changing how you conduct your business? Obviously with our 
adversaries using asymmetric threats and technologies and 
weapons to a greater extent than ever before that could 
overcome our both technological and numeric advantage, and 
perhaps even neutralizing it, we obviously need to focus more 
on our EW and cyber capabilities to neutralize those asymmetric 
threats.
    So I would like to hear your comments on that question. 
Thank you all.
    And, Mr. Chairman, I yield back.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Wilson. And thank you very much, Mr. Langevin.
    And indeed, as you can hear the bells and whistles, we are 
in the process of voting.
    But thank you for being here, and you have received the 
requests for the final questions, and we appreciate, again, 
very much your service, and we look forward to working with you 
in the future.
    And we wish Mr. Shaffer the best in his future career. God 
bless.
    We are adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             March 26, 2015

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 26, 2015

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Shaffer and Dr. Prabhakar. The Electronic Warfare Executive 
Committee (EW EXCOM) is co-chaired by the Under Secretary of Defense 
for Acquisition, Technology and Logistics and the Vice Chairman of the 
Joint Chiefs of Staff and includes the Service Vice Chiefs, Service 
Acquisition Executives, the commanders of USSTRATCOM and USCYBERCOM, 
Director, Operational Test & Evaluation, Director, Cost Assessment and 
Program Evaluation, Director, Defense Advanced Research Projects Agency 
and the DoD Chief Information Officer. This level of senior visibility 
and decision authority will necessarily focus attention and resources 
toward the challenges posed to our freedom of maneuver in the 
electromagnetic spectrum (EMS).
    The EW EXCOM's initial focus is on ensuring that fielded weapon 
systems and those in earlier stages of development are designed and 
equipped to operate effectively in the EMS, notwithstanding the growing 
capabilities of potential adversaries. This means that weapon systems 
must have adequate electronic protection (EP) to withstand the growing 
electronic attack (EA) capabilities of our adversaries made possible by 
the worldwide proliferation of advanced devices for signal processing, 
and that continual expansion of EA capabilities is needed to maintain 
U.S. advantage. To do so, the Department requires closer coordination 
and cooperation among the Military Departments, the many acquisition 
programs of record, and both national and Military Department's 
research laboratories. This coordination and cooperation are an 
essential emphasis of the EW EXCOM. Effective operation in the EMS 
requires extensive knowledge of the spectrum and how the adversary is 
operating within it. Thus, efforts to collect signals, both at a 
strategic level with SIGINT and a tactical level with electronic 
warfare support (ES), require continued emphasis and support. 
Additionally, as operations in the EMS are increasingly connected and 
essential to both kinetic and non-kinetic operations across the range 
of military operations, electromagnetic battle management (EMBM) 
capabilities require development and thus attention by, and direction 
from, the EW EXCOM. Finally, the EXCOM will consider operational 
issues, including the quantity and expertise of EW personnel.
    Specifically, through efforts in science and technology, the EW 
Science and Technology Community of Interest developed a roadmap for 
use by the service laboratories. The EW S&T roadmap was developed by 
Military Departments' input and approved by the ASD(R&E) to define a 
cross-cutting EW S&T investment strategy. The EW EXCOM's support to 
implement the roadmap capabilities, or to provide direction to amend it 
if required, is anticipated. The ASD(R&E) will submit an annual review 
of progress on the EW S&T Roadmap for EW EXCOM approval.
    The ASD(R&E) will seek to inform the EW EXCOM, and be guided by it, 
on EW matters. The ASD(R&E) will provide input to the EW EXCOM on the 
technologies and capabilities we see relevant to EW, a process that has 
already begun. The EW EXCOM will provide and prioritize guidance to 
drive technology development to meet specific challenges. The EXCOM's 
authority will bolster the visibility and support of proposed EW 
capabilities relative to competing options and leverage the varied EW 
strengths of the Military Departments. In regard to EW and cyber, the 
EW EXCOM will address cyberspace operations as they relate to the EMS 
in coordination with the Cyber Investment Management Board (CIMB).   
[See page 24.]
    Ms. Miller. While it is too soon to say exactly how the newly-
formed Electronic Warfare (EW) Executive Committee (ExCom) will impact 
our Science & Technology (S&T) programs, I would say that our EW and 
Cyber S&T efforts are already very well coordinated with the other 
Services and OSD through our involvement in the EW and Cyber Security 
Communities of Interest. We also coordinate extensively with our 
acquisition partners and the Training and Doctrine Command community 
during the development and execution of our programs to ensure we are 
addressing Warfighter needs. We will continue to collaborate across the 
DoD to address this important area and will participate in the EW ExCom 
as appropriate.   [See page 24.]
    Admiral Winter. The Defense Science Board (DSB) recommendations 
regarding improving our Electronic Warfare (EW) capabilities spanned 
all phases of military development, from science and technology (S&T) 
through acquisition and deployment. The March 17, 2015 memo from Deputy 
Defense Secretary Work established the Electronic Warfare Executive 
Committee and chartered this new group ``to provide senior oversight, 
coordination, budget/capability harmonization, and advice on EW matters 
to the Secretary of Defense, Deputy Secretary of Defense and the 
Deputy's Management Action Group.'' Further, it states the initial 
focus areas of the group ``will include EW strategy, acquisition, 
operational support, and security.''
    Missing from this list is EW science and technology (S&T), which is 
where Office of Naval Research (ONR), the other service S&T 
organizations and DARPA can contribute. Fortunately, Assistant 
Secretary of Defense (Research & Engineering) has already established a 
joint S&T oversight group, the EW Community of Interest (COI), which 
produced in 2014 a far term joint roadmap for EW research and 
development. This Joint EW COI S&T Roadmap independently identified 
many of the shortfalls in current EW capabilities highlighted by the 
DSB study. More importantly, this roadmap shows how past, current and 
planned EW S&T investments in developing technology enablers have put 
the DoD on a path toward realizing a future EW vision to mitigate and 
eliminate these shortfalls. A separate Cyber S&T COI has produced a 
similar long term Joint Cyber S&T Roadmap and both COIs are working 
``at the points where EW and cyber are converging.'' Our recommendation 
would be that the new EW Executive Committee adopt the EW COI and the 
Cyber COI as advisory bodies on S&T and endorse their respective 
roadmaps as the long term vision for future DoD EW/Cyber capability 
development.   [See page 24.]
    Dr. Walker. The creation of the Electronic Warfare Executive 
Committee (EW EXCOM) will complement our existing efforts to harmonize 
the development of EW, Cyber, and integrated Cyber-EW capabilities 
across the Services and Agencies of the DoD. It will mesh well with the 
efforts and activities of the Assistant Secretary of Defense's 
(Research & Engineering) Reliance 21 Program in the Science & 
Technology (S&T) community.
    The EW EXCOM will provide senior oversight, coordination, budget/
capability harmonization, and advice on EW matters to the Secretary of 
Defense, Deputy Secretary of Defense, and the Deputy's Management 
Action Group. It will facilitate cohesion across requirements, science 
and technology (S&T), research, development, acquisition, test and 
evaluation (T&E), and sustainment to ensure that EW and joint 
electromagnetic spectrum operations (JEMSO) investments are effectively 
planned, executed, and coordinated across the DoD. The EW EXCOM will 
provide feedback to key senior level DoD decision-making bodies on the 
execution of EW requirements and acquisition processes.
    Underpinning the science and technology (S&T) leadership is an 
ecosystem of technical groups known as Communities of Interest (COIs). 
The COIs provide a forum for coordinating S&T strategies across the 
Department, sharing new ideas, technical directions and technology 
opportunities, jointly planning programs, measuring technical progress, 
and reporting on the general state of health for specific technology 
areas. Separate COIs for Electronic Warfare and Cyber exist and have 
been successful in their endeavors. The EW EXCOM, in coordination with 
the Cyber Investment Management Board, should provide an avenue to 
increase technology transitions from the EW and Cyber S&T COIs, 
potentially streamline acquisition of the technologies, and aid in 
establishing more integration and synergy of the technologies.   [See 
page 24.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Shaffer. The Department has an integrated technology and 
systems development roadmap for both high-energy lasers and microwaves 
(HEL, HPM). It is unlikely that either system could be operationally 
fielded before the 2022-2025 timeframe. Additional resources are not 
likely to accelerate development, but they could potentially contribute 
to significant lower risk reduction in achieving the necessary 
milestones. Development of both HEL and HPM is really an engineering 
challenge. Adding more resources is not likely to accelerate the 
engineering process. What more resources might facilitate is the chance 
to work on competing designs simultaneously, which could reduce 
technical risk, leading to a program of record that would be more 
predictable in cost and schedule.   [See page 23.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. NUGENT
    Dr. Walker. The rocket propulsion system effort, as referred to in 
the fiscal year 2015 National Defense Authorizations Act (NDAA), is 
funded in the Evolved Expendable Launch Vehicle Program (SPACE)--EMD 
Program Element (PE) 0604853F. That effort is managed through the Air 
Force Program Executive Officer for Space (AFPEO/SP) in the Space and 
Missile Systems Center (SMC) at Los Angeles AFB, CA.
    The Air Force has obligated about $50 million so far; $37 million 
in fiscal 2014 money, which was reprogrammed in the Omnibus, and about 
$13 million of the fiscal year 2015 money, which was appropriated in 
2015. We intend to invest an additional $45 million to $50 million over 
about the next six months. We issued a draft Rocket Propulsion System 
(RPS) Request for Proposals (RFPs) in April and will award multiple 
contracts with propulsion system or launch system providers to partner 
with their ongoing investment in domestic propulsion systems as part of 
our plan to develop a domestic propulsion system by 2019, and to do so 
competitively. However, this will only give us an engine, and an engine 
alone will not launch us into space. Transitioning the engine to a 
fully integrated tested and certified capability will take longer than 
that. This is the consensus of experts across the space enterprise.   
[See page 20.]
    Dr. Walker. We do not have the ability to give the combatant 
commanders this capability right now for a fraction of the cost. One 
year and $10 million is not sufficient to provide a CHAMP-like 
capability to the warfighter. Raytheon, a CHAMP contractor, has 
estimated that the cost and schedule to provide 32 missiles is four 
years and $140 million. This estimate does not include the cost, 
resources and planning required by the Air Force and the combatant 
commands for the development and implementation of doctrine, 
organization, training, materiel, leadership and education, personnel 
and facilities (DOTMLPF) associated with a weapon system capability. 
Additionally, maintaining a very small number of CHAMP platforms, with 
the associated sophisticated hardware, in the inventory will be 
expensive. There are also concerns with the platform's survivability, 
ingress range, target engagement ranges, and guidance and navigation 
capabilities in a realistic scenario. Developing and producing any 
weapon system would not be funded within the Science and Technology 
portfolio.   [See page 21.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. STEFANIK
    Ms. Miller. One of the great strengths of Army Science & Technology 
(S&T) is our world-class cadre of nearly 12,000 scientists and 
engineers. For 30 years now, the Army has embedded scientists and 
technology experts in the field to ensure that the exchange of new 
technology and the feedback it yields moves efficiently between the 
researchers who develop it and the Soldiers who use it. In recent 
military operations in Iraq and Afghanistan, the Army's labs have been 
an important source of rapid technology transition of solutions to meet 
operational needs. Through the Research, Development and Engineering 
Command (RDECOM), our Field Assistance in Science and Technology (FAST) 
Activity brings Army labs and research and engineering centers into 
closer contact with their ``customers''--the major Army commands 
throughout the world, providing the Soldier in the field with greater 
support and responsiveness to operational needs. This includes the 
Science and Technology Assistance Team (Afghanistan) (STAT-A), a 
rotating 3-person team that from 2007 to 2014 provided in-theater 
technical advice and quick reaction solutions to technical problems, as 
well as a direct connection back to our scientists and engineers back 
home. Today, RDECOM provides the lead Engineer in the Rapid Equipping 
Force (REF) Expeditionary Lab in Afghanistan on a 179 day rotation 
supporting Soldiers on the ground. Over the past years, the Army S&T 
Enterprise has made numerous other important contributions to our 
efforts in Afghanistan. For example, our Deployable Force Protection 
(DFP) program was established in response to the DoD's priority 
initiative to improve force protection at forward operating bases 
(FOBs). U.S. military units operating remotely at small bases are more 
vulnerable to enemy attacks, especially extra small FOBs, combat 
outposts, and patrol bases where 300 personnel or less occupy the base. 
Their vulnerabilities are greater because they have less manpower and 
organic equipment for construction of protective measures, weapon 
systems with shorter kinetic reach, significant bandwidth limitations, 
and are generally more remote making them difficult to reach with 
reinforcements or supplies. The DFP S&T Program was stood-up to help 
address these shortfalls and was geared toward accelerated development 
of technologies with spiral transitions to acquisition partners or 
related activities such as the Rapid Equipping Force. The DFP program 
concluded in FY14, having delivered a number of important capabilities 
to US Forces-Afghanistan, including Cerberus Lite and Low-logistics 
Modular Protective Systems Mortar Pit Kits. These small FOB force 
protection capabilities were especially useful during the drawdown when 
the bases' manpower and organic capabilities were being reduced. Army 
S&T has also developed several Soldier power technologies that have 
transitioned through Program Executive Office Soldier and been provided 
specifically to the 10th Mountain Division. For example, the Conformal 
Wearable Battery (CWB) is a 2.3lb ergonomic Soldier-worn battery that 
bends to the curvature of the Soldier's chest and/or back and provides 
150 watt-hours of power. The battery serves as the central source of 
power for multiple Soldier-worn devices, and increases Soldier mobility 
by better distributing weight around the Soldier's core. The Integrated 
Soldier Power/Data System (ISPDS) is an integrated Soldier worn power/
data distribution system intended to manage power and data from Soldier 
worn devices and powered by the CWB. The system manages the 
distribution of power across all worn peripherals and aggregates 
peripheral data onto a common end-user device. Over a 72 hour period, 
ISPDS provides a 32 percent weight savings in batteries. Both these 
technologies were provided to the 1st, 3rd and 4th Brigades, 10th 
Mountain Division, between 2012 and 2014.   [See page 23.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 26, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Could you give us an update on the status of the 
``Trusted Foundry'' program for providing a secure source of microchips 
for sensitive defense systems? What is being done to respond to the 
recent announcement that IBM plans to sell its Foundry capabilities to 
a foreign controlled company?
    Mr. Shaffer. [The information referred to is for official use only 
and retained in the committee files.]
    Mr. Wilson. Do you have enough visibility into industry-directed 
independent research and development (IR&D)? Are there additional 
legislative tools you need to be more effective in coordinating with 
those investments?
    Mr. Shaffer. IR&D conducted by defense contractors as an allowable 
overhead expense can be an important source of innovation for both 
industry and DoD. IR&D represents well over $4 billion in annual R&D 
spending. Reviews of IR&D spending indicate that a significant fraction 
of IR&D is being spent on near-term competitive opportunities and on de 
minimis investments principally intended to create intellectual 
property rights for a company. IR&D allowability should encourage 
contractors to engage in R&D activities of potential interest to DoD. 
We have established a database in which companies meeting certain 
dollar thresholds are required to report their IR&D projects. Because 
companies enter the information at the end of their Fiscal Year, our 
visibility is limited to looking in the past. We are working to 
increase visibility into IR&D without increasing administrative burdens 
or requiring legislation.
    Mr. Wilson. What tools do you have to transition successful 
technologies developed by S&T, whether in the labs or from contractors, 
into programs of record?
    Mr. Shaffer. Prototyping and experimentation have become key 
transition tools. Prototypes are preliminary versions of a system or 
major sub-system assembled to resolve some area of risk and/or to 
explore operational potential. Experimentation puts prototypes into end 
users' hands in an operational context. Experimentation capabilities 
span ranges from field use by military personnel, wargaming, 
simulation, Service/Combatant Command exercises, and government/
industry live, virtual and constructive environments.
    Prototyping and experimentation aid in the transition of successful 
technologies by providing Warfighters with the opportunity to explore 
novel operational concepts. In addition, they provide a hedge against 
threat development and reduce the lead time to develop and field new 
capabilities.
    Mr. Wilson. How important are programs like the Small Business 
Innovative Research program (SBIR), Small Business Technology Transfer 
program (STTR), or the Rapid Innovation Program (RIP) to your 
technology transition efforts?
    Mr. Shaffer. SBIR/STTR and RIP are key enablers for transitioning 
small business technologies into DoD products. Based on a recent DoD-
wide survey of military and industry RIP participants, RIP remains one 
of the few programs available to acquisition managers to solicit 
competitively for technology refresh, providing small businesses an 
``on-ramp'' into defense acquisition programs.
    RIP stimulates U.S. manufacturing and supports small businesses. 
Eighty-eight percent of RIP contracts (321 of the 365 awards over a 
five year period) are awarded to small businesses, with over seventy-
five percent awarded to businesses that participate or have 
participated in the SBIR program.
    Mr. Wilson. Do you have enough visibility into industry-directed 
independent research and development (IR&D)? Are there additional 
legislative tools you need to be more effective in coordinating with 
those investments?
    Ms. Miller. The Army currently has sufficient visibility into 
industry-directed independent research and development (IR&D). In fact, 
quarterly IR&D updates are held at the OSD level between the heads of 
large defense companies and Defense and Service Acquisition and S&T 
leads and provide a regular opportunity to exchange dialogue and inform 
investment decisions in their R&D portfolios. The Defense Federal 
Acquisition Regulation Supplement (DFARS) rules provide for a major 
contractor's annual IR&D costs to be allowable only if the contractor 
reports its IR&D projects to the Department of Defense. Currently this 
reporting is done through the Defense Technical Information Center 
(DTIC) via an online form. Participating companies are required to 
update their efforts annually and again upon project completion. While 
the DoD has visibility into IR&D projects, the DoD has only limited 
ability to impact the allowability of the projects and therefore may 
require statutory or regulatory changes to gain the ability to endorse 
or reject projects prior to their initiation.
    Mr. Wilson. What tools do you have to transition successful 
technologies developed by S&T, whether in the labs or from contractors, 
into programs of record? How important are programs like the Small 
Business Innovative Research program (SBIR), Small Business Technology 
Transfer program (STTR), or the Rapid Innovation Program to your 
technology transition efforts?
    Ms. Miller. One example of the tools that exist within the Army to 
assist in the transition of technologies is the Army's Technology 
Maturation Initiative (TMI) (Program Element 0604115A), which aligns 
S&T and acquisition partners under a coordinated effort to assess 
emerging but needed capability improvements and facilitate their 
transition to Programs of Record. TMI matures high-payoff S&T products 
beyond traditional technology readiness levels in order to drive down 
program risks, inform affordable and achievable requirements and 
increase transition success. By engaging key stakeholders from the 
requirements, technology, acquisition and resourcing communities to 
select and oversee the TMI and other prototyping efforts, we are able 
to prioritize and coordinate efforts that best enable the integration 
of new capability into current and planned Acquisition programs.
    The Army SBIR and STTR programs also aid in technology transition 
by providing acquisition Program Managers with visibility of innovative 
small business technologies. Army SBIR Phase I projects develop proof 
of concept solutions and Phase II further develops those technologies 
into prototypes. The Army SBIR program uses their Phase II Enhancement 
Program to facilitate transition of promising technologies into 
acquisition programs. Under the Phase II enhancement program, the 
acquisition program needs to make a tangible commitment to the 
transition, and SBIR will provide up to $500,000. Started in 2008, this 
program has led to many successful transitions into acquisition 
programs and industry.
    The Army has also used the Rapid Innovation Funding (RIF) program 
to transition technologies. The RIF program provides the Army a useful 
mechanism to address Program Executive Office and the Research 
community near-term challenges. Of the 71 projects awarded in Fiscal 
Years 2011 and 2012, nine have transitioned to acquisition programs 
with committed outyear funding and an additional 58 are working 
transition agreements, with outyear funding not yet committed.
    Mr. Wilson. Do you have enough visibility into industry-directed 
independent research and development (IR&D)? Are there additional 
legislative tools you need to be more effective in coordinating with 
those investments?
    Admiral Winter. As reflected in the recent guidance on Better 
Buying Power (BBP) 3.0 issued by USD/AT&L, there is clearly a need for 
increasing our visibility into industry IR&D. This is a valuable 
complement to the Services' RDT&E investments, but to ensure that it is 
being used productively, we need to increase communications between 
industry and Government on the subject. Under BBP 3.0, this is being 
done in two ways.
    First, we have initiated a recurring series of Technology 
Interchange Meetings (TIMs), organized by the DoD technical Communities 
of Interest, which will provide a forum for the Government to 
communicate future strategies and program thrusts to industry and for 
industry to share relevant IR&D efforts with Government subject matter 
experts. The initial stages of these information exchanges will be 
accomplished virtually, via the DTIC hosted Defense Innovation 
Marketplace. Based upon reviews of these initial exchanges, face to 
face meetings and reviews of relevant projects will be conducted. The 
outcome of these TIMs will include both increased shared situational 
awareness and the identification of potential new areas for partnering 
between Government and industry.
    Second, we are initiating a new process for review and endorsement 
of IR&D efforts prior to the Government making a determination 
regarding allowable IR&D expenses. Discussions with industry regarding 
this new process and specific mechanisms to accomplish it are ongoing. 
Depending on the outcome of these discussions, there may be a need for 
legislative action to support implementation of the new process. 
However, that is yet to be determined, so no action is requested at 
this time. The resulting process will increase Government visibility 
into industry strategy and focus of IR&D efforts, allowing the 
Government to more effectively inform industry of relevant RDT&E 
programs and shape those programs to better leverage industry 
investment.
    Mr. Wilson. What tools do you have to transition successful 
technologies developed by S&T, whether in the labs or from contractors, 
into programs of record? How important are programs like the Small 
Business Innovative Research program (SBIR), Small Business Technology 
Transfer program (STTR), or the Rapid Innovation Program to your 
technology transition efforts?
    Admiral Winter. GAO recently reported positively on DoN's approach 
and tools for technology transition. Technology Transition Programs 
Support Military Users, but Opportunities Exist to Improve Measurement 
of Outcomes GAO-13-286: Published: Mar 7, 2013. One of DoN's primary 
investments in late term transition focused research is the Future 
Naval Capability (FNC) program. This science and technology (S&T) 
investment portfolio utilizes nine (two-star level) mission-focused 
Department-wide Integrated Product Teams to collaborate to determine 
the naval need, product priority, and appropriate technology focus of 
any new FNC S&T investments. These FNCs are recommended at the two-star 
(IPT) level and forwarded to a naval technology oversight board at the 
three-star level for approval. Once approved at the three-star level, 
FNC S&T investments are tracked and enforced through negotiated 
Technology Transition Agreements (TTAs) agreed-to and signed by program 
managers across the three collaborating naval communities from S&T, 
Requirements and Acquisition. These agreements are reviewed and renewed 
annually to ensure appropriate leadership visibility and progress in 
delivering the capability to the warfighter. The SBIR/STTR Programs are 
very important as they are the largest source of early stage research 
and development funds for small businesses (over $300 million in the 
DoN). By utilizing agile small businesses, SBIR/STTR awardees develop 
innovative technologies that address DoN needs and enhance military 
capability, accelerate military development capability, and provide 
cost savings to acquisition programs and fielded systems. The Rapid 
Innovation Program is also very important and provides acquisition 
program managers with a tool to select and transition technology that 
addresses their priority needs. The goal of RIP is to accelerate the 
fielding of innovative technologies into military systems. The program 
achieves its goal utilizing source selection preference for small 
businesses, particularly those from SBIR/STTR, whose technology 
readiness levels are at the component and/or breadboard validation in a 
relevant environment or at the system/subsystem model or prototype 
demonstration in a relevant environment. A 2015 GAO report, DOD Rapid 
Innovation Program: Some Technologies Have Transitioned to Military 
Users, but Steps Can Be Taken to Improve Program Metrics and Outcomes, 
GAO-15-421, supported the Navy's approach to technology transition. 
``In addition, the Office of Naval Research's risk management team can 
provide support for small businesses to stay on track in fulfilling RIP 
contracts, including making sure companies can ramp up production if 
their projects are transitioned. We have previously reported that this 
office has a well-established technology transition focus which may 
contribute to project success. Because of this, the Navy may be better 
aware of the benefits and obstacles associated with a substantial 
portion of their S&T portfolio. This knowledge can better inform 
investment decisions made by Navy leadership.''
    Mr. Wilson. Do you have enough visibility into industry-directed 
independent research and development (IR&D)? Are there additional 
legislative tools you need to be more effective in coordinating with 
those investments?
    Dr. Walker. Yes, the Air Force has sufficient visibility into 
industry-directed independent research and development. The Air Force 
science and technology program frequently interacts with industry, 
academia, small businesses and international partners to enable 
research and development synergies. As a prime example, the Aerospace 
Systems Technology Directorate in the Air Force Research Laboratory 
participates in several consortiums such as the Rocket Propulsion for 
the 21st Century and the Versatile Affordable Advanced Turbine Engine, 
where both government and industry collaborate to achieve common goals 
and address national technology needs. At this time, the Air Force does 
not request additional legislative tools to be more effective in 
coordinating investments.
    Mr. Wilson. What tools do you have to transition successful 
technologies developed by S&T, whether in the labs or from contractors, 
into programs of record? How important are programs like the Small 
Business Innovative Research program (SBIR), Small Business Technology 
Transfer program (STTR), or the Rapid Innovation Program to your 
technology transition efforts?
    Dr. Walker. There are two keys to the successful transition of 
technology developed from S&T. The first is that the technology must 
address a prioritized capability gap. The second is that the technology 
must be successfully demonstrated in a relevant environment. With 
today's budget constraints, only those technologies that address top 
capability gaps and are successfully demonstrated have a chance at 
transition to the warfighter. The involvement of Program Executive 
Offices (PEOs) and Centers is essential to successful transition of 
technology. PEOs and Centers are best positioned to understand the 
Major Command (MAJCOM) requirements, what the labs can deliver, and 
what vendors are working on. The Air Force has been working hard to 
tighten the lines of communication between the S&T community, PEOs, 
Centers, and MAJCOMs. The Air Force has several programs that 
facilitate the transition of technology. The SBIR/STTR and Rapid 
Innovation programs are three such programs that are very important to 
Air Force technology transition efforts. SBIR/STTR programs identify 
small businesses that are engaged in developing technologies with the 
potential to address Air Force requirements. Funds provided through 
these programs empower small businesses' efforts to bring their 
innovative technologies to commercial readiness. As the technical 
readiness level matures during the period of support, the potential Air 
Force customer works closely with the company to ensure alignment of 
the capability with the requirement. As part of the SBIR/STTR programs, 
the Commercialization Readiness Program (CRP) identifies companies that 
have significantly advanced their technologies, but still require some 
additional support to move to enable insertion into programs of record. 
The Rapid Innovation Program has been an excellent means for the Air 
Force to communicate areas of critical need and solicit vendors to 
respond with innovative technology solutions. The Air Force is now in 
its fifth year of working with this program and has experienced very 
positive results in transitioning technology, primarily from small 
businesses, to address Air Force requirements. There are two other 
programs that also assist in the transition of technology: the 
Technology Transition program and the Technology Transfer program. The 
Technology Transition program provides funds to mature and demonstrate 
technologies to enable or accelerate their transition into programs of 
record. Currently, the primary focus in this program element is the 
follow-on maturation and demonstration/validation of next generation 
adaptive jet engines. The Technology Transfer program was created to 
promote the transfer and exchange of technology with state and local 
governments, academia and industry. The primary means for doing this is 
through Partnership Intermediary Agreements between the Air Force and 
non-traditional contractors such as a small business or university to 
facilitate technology transfer. This year the Office of the Secretary 
of Defense (OSD) is rolling out a new program to assist in 
transitioning technology to address hard problems. This program is 
through the Emerging Capabilities and Prototyping Directorate in OSD 
and offers the Services the opportunity to propose technology that 
addresses top priority challenges throughout the DoD. The Air Force 
Research Laboratory and PEOs, in partnership with other organizations 
such as national labs, university affiliated research centers, and 
Combatant Commanders, propose technologies that address OSD challenges 
and if successfully demonstrated will transition. The Air Force 
continues to focus on technology transition and is striving to ensure 
our MAJCOMs, PEOs, Centers, and AFRL are all working together to 
maximize results of our S&T efforts. We especially recognize small 
businesses areas are a major driver of innovation and we continue to 
explore and strengthen all avenues to encourage our partnership with 
them.
    Mr. Wilson. Could you give us an update on the status of the 
``Trusted Foundry'' program for providing a secure source of microchips 
for sensitive defense systems? What is being done to respond to the 
recent announcement that IBM plans to sell its Foundry capabilities to 
a foreign controlled company?
    Dr. Prabhakar. [The information referred to is for official use 
only and retained in the committee files.]
    Mr. Wilson. Do you have enough visibility into industry-directed 
independent research and development (IR&D)? Are there additional 
legislative tools you need to be more effective in coordinating with 
those investments?
    Dr. Prabhakar. IR&D conducted by defense contractors as an 
allowable overhead expense can be an important source of innovation for 
both industry and DoD. IR&D represents well over $4 billion in annual 
R&D spending. Reviews of IR&D spending indicate that a significant 
fraction of IR&D is being spent on near-term competitive opportunities 
and on de minimis investments principally intended to create 
intellectual property rights for a company. IR&D allowability should 
encourage contractors to engage in R&D activities of potential interest 
to DoD. We have established a database in which companies meeting 
certain dollar thresholds are required to report their IR&D projects. 
Because companies enter the information at the end of their Fiscal 
Year, our visibility is limited to looking in the past. We are working 
to increase visibility into IR&D without increasing administrative 
burdens or requiring legislation.
    Mr. Wilson. What tools do you have to transition successful 
technologies developed by S&T, whether in the labs or from contractors, 
into programs of record? How important are programs like the Small 
Business Innovative Research program (SBIR), Small Business Technology 
Transfer program (STTR), or the Rapid Innovation Program to your 
technology transition efforts?
    Dr. Prabhakar. Tools: The primary means by which S&T-funded efforts 
performed in laboratories or contractor facilities are transitioned to 
programs of record is driven by acquisition program managers who 
competitively solicit proposals from industry to initiate a new program 
of record or to modify or enhance an existing program of record. 
Contractors who have demonstrated technical feasibility and developed 
components or prototypes on DARPA contracts and demonstrated a 
sufficiently high technology readiness level (TRL) typically respond to 
these competitive solicitations. The decision and the funding to 
incorporate the DARPA-developed technology into a program of record is 
determined and executed by the acquisition program. To facilitate the 
transition of DARPA-funded projects into programs of record, DARPA 
works with both the military operational community (COCOMs) and the 
acquisition community PEOs/PMs and Chiefs of Staff of the Military 
Departments to validate needs, understand concepts of operations, 
demonstrate prototypes and participate in operational exercises. The 
primary benefit of this aggressive and continuous interaction is that 
the acquisition professionals (those responsible for programs of 
record) not only learn about the benefits of DARPA programs but become 
active participants in the development process and advocates for 
technology transition in their Service.
    SBIR/STTR: The DARPA Technology Offices leverage the Small Business 
Innovation Research (SBIR) and Small Business Technology Transfer 
(STTR) Programs to address significant technical problems that are 
considered high risk, but high payoff; to explore alternative 
technology approaches to mitigate risk for a DARPA program; to explore 
the feasibility of a new start; or to investigate a disruptive 
technology. DARPA frequently uses the SBIR/STTR programs to explore new 
ideas from novel and sometimes unconventional small businesses rather 
than as a technology transition tool.
    However, the Small Business Programs Office places high emphasis on 
helping small businesses to transition their technology and offers 
transition and commercialization planning and implementation assistance 
for active DARPA-funded SBIR/STTR Phase II projects during the contract 
period of performance (typically 24 months). The goal is to increase 
the potential for these companies to move their developed technologies, 
solutions or products beyond Phase II and into the DoD military 
services, other federal agencies, and/or the commercial market. Entry 
into the program is voluntary and services are provided at no cost to 
participants, which is consistent with added congressional and DoD 
priorities over the past several years.
    The DARPA Transition and Commercialization Support Program (TCSP) 
offers a range of assistance, including consulting and collaborating 
with small companies in developing and executing their project-focused 
transition and commercialization strategies. More than half of all 
qualified companies take advantage of the program's offerings:
    <bullet>  review and provide feedback to the company on their 
transition and commercialization plans
    <bullet>  identify experiment and demonstration opportunities and 
sources of potential funding and collaborators
    <bullet>  facilitate introductions to potential funders, 
collaborators, and partners
    <bullet>  provide business planning and technology readiness 
assessment tools
    <bullet>  provide routine alerts about opportunities
    Support includes targeted outreach and training events to promote 
transition successes and share best practices and lessons learned. 
Participants' progress is tracked as they move on to Phase III awards 
and beyond.
    In FY15 the DARPA SBIR/STTR program is funded by placing 3.3% of 
the DARPA top line appropriated budget into the SBIR/STTR account. 
DARPA does not receive external funding for this program.
    Rapid Innovation Fund (RIF): DARPA does not directly participate in 
RIF. This program is administered by the ASD(R&E) and is intended to 
reach out to small business that may have technology products available 
at a technology readiness level 6-9 (low risk) that can be rapidly 
adapted to meet a Military Department acquisition program or 
operational need. DARPA typically funds projects that are high risk 
(lower TRL) with large payoff. The DoD RIF program participants are 
typically organizations that have an operational mission where a 
minimal, short-term investment in a mature small business technology 
can impact near-term operations. DARPA does not have an operational 
mission and is not a customer for or consumer of these products. 
However, performers on DARPA programs are made aware of the RIF program 
and they can independently respond to the competitive RIF solicitation 
if their technology products satisfy the appropriate criteria. From an 
SBIR standpoint, the firms in our SBIR Phase 2 portfolio are informed 
of RIF funding opportunities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. NUGENT
    Mr. Nugent. Last year, the 113th Congress appropriated $220 million 
dollars for the sole purpose of accelerating the development of a 
domestic rocket propulsion system. However thus far, neither the Air 
Force nor the Department of Defense has moved expeditiously to 
accomplish this task.
    Since the passage of last year's Appropriations act, what has the 
Air Force specifically done to develop an advanced liquid rocket 
booster engine to replace the RD-180?
    Dr. Walker. The rocket propulsion system effort, as referred to in 
the fiscal year 2015 National Defense Authorizations Act (NDAA), is 
funded in the Evolved Expendable Launch Vehicle Program (SPACE)--EMD 
Program Element (PE) 0604853F. That effort is managed through the Air 
Force Program Executive Officer for Space (AFPEO/SP) in the Space and 
Missile Systems Center (SMC) at Los Angeles AFB, CA.
    The Air Force has obligated about $50 million so far; $37 million 
in fiscal 2014 money, which was reprogrammed in the Omnibus, and about 
$13 million of the fiscal year 2015 money, which was appropriated in 
2015. We intend to invest an additional $45 million to $50 million over 
about the next six months. We issued a draft Rocket Propulsion System 
(RPS) Request for Proposals (RFPs) in April and will award multiple 
contracts with propulsion system or launch system providers to partner 
with their ongoing investment in domestic propulsion systems as part of 
our plan to develop a domestic propulsion system by 2019, and to do so 
competitively. However, this will only give us an engine, and an engine 
alone will not launch us into space. Transitioning the engine to a 
fully integrated tested and certified capability will take longer than 
that. This is the consensus of experts across the space enterprise.
    Mr. Nugent. Last year, Congress directed the Air Force to deliver 
the CHAMP system on the cruise missile.
    Congress also set aside an extra $10 million dollars for the 
specific purpose of getting this particular technology out of the lab 
and to our warfighters on the non-reusable platform. Why has this not 
been completed?
    Dr. Walker. Gen Welsh stated, concerning CHAMP, during the HASC 
Fiscal Year 2016 National Defense Authorization Budget Request from the 
Military Departments hearing that took place on Mar 17 2015 ``Do we 
plan to produce this weapon by F.Y. '16? No, sir, we can't get there 
from here.'' We do not have the ability to give the combatant 
commanders this capability right now for a fraction of the cost. One 
year and $10 million is not sufficient to provide a CHAMP-like 
capability to the warfighter. Raytheon, a CHAMP contractor, has 
estimated that the cost and schedule to provide 32 missiles is four 
years and $140 million. This estimate does not include the cost, 
resources and planning required by the Air Force and the combatant 
commands for the development and implementation of doctrine, 
organization, training, materiel, leadership and education, personnel 
and facilities (DOTMLPF) associated with a weapon system capability. 
Additionally, maintaining a very small number of CHAMP platforms, with 
the associated sophisticated hardware, in the inventory will be 
expensive. There are also concerns with the platform's survivability, 
ingress range, target engagement ranges, and guidance and navigation 
capabilities in a realistic scenario. Developing and producing any 
weapon system would not be funded within the Science and Technology 
portfolio.

                                  [all]
</pre></body></html>
